                                                          FY 2012 HUD OIG Conferences 
 

                                                                   Total                  Number
                                                                Conference     Date of      of
                      Conference                     Location    Expenses    Conference   Payees   How the Conference Advanced the Mission of the Agency

    The HUD-OIG did not have any conference expenses in excess of $100,000 in fiscal year 2012.
 
